rr
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Filed: June 02, 2020
Mr. Lewis J. Vance
Noble Correctional Institution
15708 McConnelsville Road
Caldwell, OH 43724
Ms. Stephanie Lynn Watson
Office of the Attorney General
of Ohio
150 E. Gay Street
16th Floor
Columbus, OH 43215
Re: Case No. 19-4252, Lewis Vance v. Timothy Buchanan
Originating Case No.: 2:19-cv-00687
Dear Counsel and Mr. Vance:
The Court issued the enclosed Order today in this case.
Sincerely yours
s/Amy E. Gigliotti
Case Management Specialist
Direct Dial No. 513-564-7012
cc: Mr. Richard W. Nagel
Enclosure
No mandate to issue

Tel. (513) 564-7000
www.ca6.uscourts.eov

7k.SSoo
No. 19-4252

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
LEWIS J. VANCE,
Petitioner-Appellant,
v.
TIMOTHY E. BUCHANAN, Warden,
Respondent-Appellee.

)
)
)
' )
)
)
)
)
)

Jun 02, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: BUSH, Circuit Judge.

Lewis J. Vance, a pro se Ohio prisoner, applies for a certificate of appealability (“COA”)
in his appeal from the district court’s judgment denying his 28 U.S.C. § 2254 petition for a writ of
habeas corpus. See 28 U.S.C. § 2253(c)(1)(A). Vance also moves to proceed in forma pauperis.
A jury found Vance guilty of aggravated murder and several lesser-included offenses, plus
one count of tampering with evidence, and found him not guilty of kidnapping, abduction, and
attempted rape.

The trial court sentenced him to life imprisonment without parole for the

aggravated-murder conviction and a consecutive thirty-six-month term for the tampering-withevidence conviction.
The Ohio Court of Appeals affirmed Vance’s convictions but vacated his sentence and
remanded to fix two sentencing errors. State v. Vance, No. 16CA11, 2018 WL 1660068 (Ohio Ct.
App. Mar. 22, 2018). The Ohio Supreme Court denied review. State v. Vance, 101 N.E.3d 465
(Ohio 2018) (table). Vance filed for state post-conviction relief, which the Ohio courts rejected.
See State v. Vance, No. 17CA9, 2018 WL 5796229 (Ohio Ct. App. Oct. 29, 2018), appeal not
allowed table, 116 N.E.3d 155 (Ohio 2019).

He then filed an Ohio Appellate Rule 26(B)

application to reopen his appeal, which the Ohio Court of Appeals and Ohio Supreme Court
denied. SeeStatev. Vance, 118 N.E.3d 258 (Ohio 2019) (table). The trial court held a resentencing

7M$8*t

^.3

No. 19-4252
-2-

hearing following the remand order in his direct appeal, reiterated the terms of his original
imprisonment, and fixed the errors from his original sentencing. Vance’s appeal of that judgment
did not succeed. State v. Vance, No. 18CA2, 2018 WL 6843756 (Ohio Ct. App. Dec. 17, 2018),
appeal not allowed table, 120 N.E.3d 31 (Ohio 2019).
Vance then filed a § 2254 petition, raising four claims: (1) the trial court erred by refusing
to hold a hearing or rule on his pro se motion for a new trial; (2) his sentence is excessive and
inhumane; (3) his convictions are against the manifest weight of the evidence, and the evidence
was insufficient to support his convictions; and (4) his trial and appellate counsel were ineffective.
A magistrate judge recommended denying the petition, denying claims one' and two as
noncognizable or on the merits and claims three and four as procedurally defaulted. Vance v.
Warden, Noble Corr. Inst., No. 2:19-CV-00687, 2019 WL 5802660 (S.D. Ohio Nov. 7, 2019).
The district court adopted the magistrate judge’s recommendation over Vance’s objections, denied
his petition, and declined to grant a COA. Vance v. Warden, Noble Corr. Inst., No. 2:19-CV00687, 2019 WL 6467261 (S.D. Ohio Dec. 2, 2019). Vance now seeks a COA from this court.
A court may issue a COA “only if the applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). “That standard is met when ‘reasonable
jurists could debate whether (or, for that matter, agree that) the petition should have been resolved
in a different manner,”’ Welch v. United States, 136 S. Ct. 1257, 1263 (2016) (quoting Slack v.
McDaniel, 529 U.S. 473, 484 (2000)), or when “jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further,” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003). When the district court has denied the petition on procedural grounds, the petitioner must
show that reasonable jurists “would find it debatable whether the petition states a valid claim of
the denial of a constitutional right and ... would find it debatable whether the district court was
correct in its procedural ruling.” Slack, 529 U.S. at 484.
Vance first claimed that the state trial court erred by refusing to hold a hearing or rule on
his motion for a new trial. Vance filed the motion pro se, and the trial court refused to rule on it
because he was represented by counsel. The Ohio Court of Appeals affirmed the trial court’s

7?*,59*Z

No. 19-4252
-3decision, holding that a defendant has a right to counsel and a right to represent himself but no
right to hybrid representation. Vance, 2018 WL 1660068, at *5. To the extent that Vance alleged
a violation of state law, that, the district court held, is not cognizable on federal habeas review.
See Swarthout v. Cooke, 562 U.S. 216, 219 (2011). If Vance asserted a constitutional violation,
the district court determined that the state court did not err in holding that Vance had no right to

file a pro se motion while represented by counsel. See United States v. Green, 388 F.3d 918, 922
(6th Cir. 2004). No reasonable jurist could debate that decision.
In his second claim, Vance asserted that his .sentence of life without parole is excessive and
inhumane. The Ohio Court of Appeals rejected this argument, holding that state law prevented
appellate review of sentences for aggravated murder, see Ohio Rev. Code § 2953.08(D)(3), and
that his sentence for tampering with evidence was not excessive and did not violate due process.
Vance, 2018 WL 1660068, at *6-7. To the extent that Vance alleged that his sentence violated
state law, the district court held again that such a claim does not support habeas relief. Vance,
2019 WL 5802660, at *15. The district court also held that the length of his sentence did not
violate the Eighth Amendment’s prohibition on cruel and unusual punishments, given that it was
within the maximum sentence authorized by state law. Id. Because Vance has not made a
substantial showing that his sentence was “extreme” or “grossly disproportionate,” no reasonable
jurist could debate the denial of this claim. Austin v. Jackson, 213 F.3d 298, 302 (6th Cir. 2000)
(quoting Harmelin v. Michigan, 501 U.S. 957, 959 (1991)).
The district court denied Vance’s third and fourth claims as procedurally defaulted. To
obtain federal habeas relief, a petitioner must have first exhausted his state-court remedies by
“giv[ing] the state courts one full opportunity to resolve any constitutional issues by invoking one
complete round of the State’s established appellate review process.” O ’Sullivan v. Boerckel, 526
U.S. 838, 845 (1999); see 28 U.S.C. § 2254(b)(1)(A). When a state court has rejected a petitioner’s
claim based on an “independent and adequate state procedural rule” rather than on the merits, the
claim is procedurally defaulted, and federal habeas review is barred unless the petition can show

No. 19-4252
-4-

cause for the default and prejudice or that failure to review the claim “will result in a fundamental
miscarriage of justice.” Coleman v. Thompson, 501 U.S. 722, 749-50 (1991).
In his third claim, Vance asserted that his convictions are against the manifest weight of
the evidence and that there was insufficient evidence supporting his convictions. The district court
held that Vance had procedurally defaulted this claim by failing to raise it on direct appeal. Vance,
2019 WL 5802660, at *8. Because Ohio principles of res judicata prevent Vance from returning
to state court to exhaust this claim, see Lundgren y. Mitchell, 440 F.3d 754, 765 n.2 (6th Cir. 2006),
no reasonable jurist could debate the district court’s ruling that he procedurally defaulted it.
In his fourth claim, Vance alleged that his attorneys at trial, at his resentencing, and on
appeal were ineffective. Vance’s state post-conviction motion included an ineffective-assistance
claim against his trial counsel, but the state court did not review the claim on the merits because
Vance had failed to present it on direct appeal. See Vance, 2018 WL 5796229, at *3. Vance raised
an ineffective-assistance claim on appeal after his resentencing, but the Ohio Court of Appeals
rejected that claim because Vance failed to submit a transcript of the hearing. See Vance, 2018
WL 6843756, at *4; Vance, 2019 WL 5802660, at *10 (citing Onunwor v. Moore, 655 F. App’x
369, 372-73 (6th Cir. 2016)). And the Ohio Court of Appeals refused to review the merits of
Vance’s ineffective-assistance-of-appellate-counsel claim because he failed to file his Rule 26(B)
motion on time. Because the state courts rejected these claims on adequate and independent
procedural grounds, no reasonable jurist could debate the district court’s determination that Vance
procedurally defaulted them.
Vance alleges that he is actually innocent, which can satisfy the fundamental-miscarriageof-justice standard to excuse procedural default. He relies on a notarized statement from a fellow
inmate claiming that another inmate told him that still another person had bragged about
committing the murder for which Vance was convicted. But that is not “new evidence showing
that a constitutional violation has probably resulted in a conviction of one who is actually
innocent,” Hodges v. Colson, 727 F.3d 517, 530 (6th Cir. 2013), particularly given the substantial
evidence supporting his convictions, see Vance, 2018 WL 1660068, at *2-3. Thus, no reasonable

No. 19-4252
-5-

ifab

jurist could debate the district court’s denial of Vance’s third and fourth claims as procedurally
defaulted.
Accordingly, Vance’s COA application is DENIED, and his motion to proceed in forma
pauperis is DENIED as moot.

ENTERED BY ORDER OF THE COURT

'Deborah S. Hunt, Clerk

fyr

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: January 17, 2020

Mr. Lewis J. Vance
Noble Correctional Institution
15708 McConnelsville Road
Caldwell, OH 43724
Ms. Stephanie Lynn Watson
Office of the Attorney General
of Ohio
150 E. Gay Street
16th Floor
Columbus, OH 43215
Re: Case No. 19-4252, Lewis Vance v. Timothy Buchanan
Originating Case No.: 2:19-cv-00687
Dear Counsel and Mr. Vance:
This case will be held in abeyance until after the district court rules on pending motions,
identified under Fed. R. App. P. 4(a)(4), and jurisdiction transfers to the Sixth Circuit Court of
Appeals. Once this court has jurisdiction, the appeal will proceed in the normal course and you
will receive additional instructions from the Clerk's office.
Enclosed please find the amended Official Court of Appeals caption.
Sincerely yours,
s/Amy E. Gigliotti
Case Management Specialist
Direct Dial No. 513-564-7012
cc: Mr. Richard W. Nagel
Enclosure

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

7h,SSHf

100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: January 17, 2020

Mr. Lewis J. Vance
Noble Correctional Institution
15708 McConnelsville Road
Caldwell, OH 43724
Ms. Stephanie Lynn Watson
Office of the Attorney General
of Ohio
150 E. Gay Street
16 th Floor
Columbus, OH 43215
Re: Case No. 20-3009, Lewis Vance v. Timothy Buchanan, Warden
Originating Case No. : 2:19-cv-00687
Dear Counsel and Mr. Vance:
The Court issued the enclosed Corrected Order today in this case.
Sincerely yours,
s/Amy E. Gigliotti
Case Management Specialist
Direct Dial No. 513-564-7012
cc: Mr. Richard W. Nagel
Enclosure

Case No. 20-3009
72s§ S&oo
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CORRECTED ORDER

LEWIS J. VANCE
Petitioner - Appellant
v.
TIMOTHY E. BUCHANAN
Respondent - Appellee

This appeal being duplicative of Case No. 19-4252, it is hereby DISMISSED.
ENTERED PURSUANT TO RULE 45(a),
RULES OF THE SIXTH CIRCUIT
Deborah S. Hunt, Clerk

Issued: January 17, 2020

;

77-5-55^7
&/0

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: January 07, 2020

Mr. Lewis J. Vance
Noble Correctional Institution
15708 McConnelsville Road
Caldwell, OH 43724
Ms. Stephanie Lynn Watson
Office of the Attorney General
of Ohio
150 E. Gay Street
16th Floor
Columbus, OH 43215
Re: Case No. 20-3009, Lewis Vance v. Timothy Buchanan
Originating Case No.: 2:19-cv-00687
Dear Counsel and Mr. Vance:
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Amy E. Gigliotti
Case Management Specialist
Direct Dial No. 513-564-7012
cc: Mr. Richard W. Nagel
Enclosure
No mandate to issue

Tb-Silti
Case No. 20-3009
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER

LEWIS J. VANCE
Petitioner - Appellant
v.
TIMOTHY E. BUCHANAN
Respondent - Appellee

This appeal being duplicative of Case No. 19-4254, it is hereby DISMISSED.
ENTERED PURSUANT TO RULE 45(a),
RULES OF THE SIXTH CIRCUIT
Deborah S. Hunt, Clerk

Issued: January 07, 2020

74* I*

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: January 06, 2020

Mr. Lewis J. Vance
Noble Correctional Institution
15708 McConnelsville Road
Caldwell, OH 43724
Ms. Stephanie Lynn Watson
Office of the Attorney General
of Ohio
150 E. Gay Street
16 th Floor
Columbus, OH 43215
Re: Case No. 20-3009, Lewis Vance v. Timothy Buchanan
Originating Case No.: 2:19-cv-00687
Dear Counsel and Mr. Vance:
This appeal has been docketed as case number 20-3009 with the caption that is enclosed on a
separate page. The appellate case number and caption must appear on all filings submitted to the
Court.
The district court has ruled an appeal could not be taken in good faith and revoked your
pauper status. You have until February 6, 2020 to either pay the $505.00 appellate filing fee (or
the amount stated by the district court) or file a motion for pauper status on appeal. If you
choose to pay the fee, it must be submitted to the U.S. District Court. If you choose to request
leave to proceed on appeal in forma pauperis, a motion and an accompanying financial affidavit
must be submitted to this court, the U.S. Court of Appeals for the Sixth Circuit. Failure to do
one or the other may result in the dismissal of the appeal without further notice.
For this appeal to proceed, the district court or this court must issue a certificate of
appealability (COA) stating at least one issue for review. If the district court has denied the
COA as to some or all issues, this court will review all issues rejected by the district court. You
do not need to take any further action for this review to occur. However, if you choose to do so,
you may submit one signed motion to grant i COA with this court, stating the issues for review

and why this court should review them. If that is your choice, please do so as soon as
possible. 6th Cir. R. 22(a). .
This court's review may take several months. If both the district court and this court deny a
certificate of appealability as to all issues, the appeal cannot proceed and will be closed. 28
U.S.C. § 2253(c).
Sincerely yours
s/Amy E. Gigliotti
Case Management Specialist
Direct Dial No. 513-564-7012

Enclosure

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 1 of 26 PAGEID #: 2529

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
LEWIS JAMES VANCE,
CASE NO. 2:19-CV-00687
JUDGE JAMES L. GRAHAM
Chief Magistrate Judge Elizabeth P. Deavers

Petitioner,
v.
WARDEN, NOBLE
CORRECTIONAL INST.,
Respondent.

ORDER and
REPORT AND RECOMMENDATION
Petitioner, a state prisoner, brings this petition for a writ of habeas corpus pursuant to 28
U.S.C. § 2254. This matter is before the Court on the Petition (ECF No. 4), Petitioner’s
Additional Evidentiary Documents (ECF Nos. 6, 14), Respondent’s Return of Writ, Petitioner’s
Reply, and the exhibits of the parties. For the reasons that follow, the Undersigned
RECOMMENDS that this action be DISMISSED.
Petitioner’s Motion for Evidentiary Hearing, Subpoena Depositional Testimony, with the
Appointment of Counsel (ECF No. 22) is DENIED.
I. Facts and Procedural History
Petitioner challenges his December 2016 convictions after a jury trial in the Jackson
County Court of Common Pleas on aggravated murder, murder, felonious assault, and tampering
with evidence. The Ohio Fourth District Court of Appeals summarized the facts and procedural
history as follows:
{f 2} On June 23, 2014, a Jackson County Grand Jury returned an indictment that
charged appellant with crimes alleged to have been committed against Patrick
Morgan, including aggravated murder in violation of R.C. 2903.01(D), murder in
violation of R.C. 2903.02(A), murder in violation of R.C. 2903.02(B), felonious

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 2 of 26 PAGEID #: 2530

^ is
assault in violation of R.C. 2903.11 (A)(1), and felonious assault in violation of R.C.
2903.11(A)(2). The indictment also included crimes alleged to have been
committed against Rachel Canode and her daughter M.C., including kidnapping in
violation of R.C. 2905.01(A)(4), abduction in violation of R.C. 2905.02(A)(2),
attempted rape in violation of R.C. 2923.02(A)/2907.02(A)(2), tampering with
evidence in violation of R.C. 29021.12(A), abduction in violation of R.C.
2905.02(A)(2), and kidnapping in violation of R.C. 2905.01(B)(2). The trial court
appointed counsel and appellant entered not guilty pleas to all charges.
3} Counsel filed various motions and, inter alia, requested a competency
evaluation. The trial court granted the request. At the November 21, 2014
competency hearing, both parties stipulated to the forensic report and the court later
determined appellant to be competent to stand trial.
4} On March 30, 2015, appellant’s trial counsel requested leave to change
appellant’s plea to not guilty by reason of insanity (NGRI) and an evaluation, along
with a third competency evaluation. The trial court granted appellant’s request for
leave to change his plea and ordered an evaluation at Appalachian Behavioral
Healthcare. However, on June 16, 2015, the court ordered the evaluation to occur
at Twin Valley Behavioral Healthcare. The court also denied the request for the
third competency evaluation.
(TJ 5} On February 19, 2016, appellant sent a pro se letter to the trial court judge
and indicated that he wished to have different counsel. At this juncture, counsel
also requested yet another competency evaluation, but the trial court indicated that
both prior evaluations determined appellant’s competency, as set forth in R.C.
2945.37(G), and that appellant raised no additional facts or argument as to why a
third competency evaluation was necessary. Thus, the court denied the motion.
{f 6} On July 14, 2016, the trial court issued a pretrial order and indicated that it
had received additional unsolicited correspondence from appellant, including: (1)
a June 27, 2016 letter, (2) a June 27,2016 voluntary statement, (3) a June 24,2016
voluntary statement, and (4) a June 19, 2016 motion for dismissal and a list of
witnesses. Because appellant had counsel, the court did not file any of the
documents, but instructed counsel to file, within 14 days, any necessary motion
regarding the issues that appellant raised in the documents. In a separate order, the
court indicated that it had received defendant’s pro se motion for acquittal, but
again stated that it would not consider appellant’s pro se motion because counsel
represented appellant.
(Tf 7} The trial court held a four day trial beginning October 20, 2016. The first
witness, William Ghearing, stated that he was driving toward Wellston, Ohio at
7:00 or 8:00 p.m. on November 29,2013 when appellant’s pick-up truck struck him
head-on. When Ghearing approached appellant, appellant told him “You never seen
me. You never seen me at all, and don’t know who I am.” Shortly thereafter,
appellant disappeared.
2

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 3 of 26 PAGEID #: 2531

{f 8} Chillicothe Police Officer Morgan Music testified that at the time of the
accident, he worked for the Coalton Police Department. After Officer Music arrived
at the crash site, he noticed a body in the truck bed. Once he secured the scene,
Officer Music also learned that a man had been observed walking about a quarter
mile away. Officer Music assisted in detaining that man (appellant), who displayed
blood on his face, pants and jacket. Jackson County Sheriffs Deputy Urias Hall
later visited the hospital to see appellant and testified that he smelled of alcohol,
but appeared to be oriented.
(f 9} Officers eventually learned that appellant’s truck actually belonged to Patrick
Morgan. Also, Ohio Bureau of Criminal Investigation (BCI) Special Agent Bryan
White testified about processing the vehicle crash site, and stated that the victim’s
(Morgan’s) pants and underwear were found around his knees, and that the victim
had only one shoe.
{f 10} Nineteen-year-old Dustin Jones testified that on the night in question,
appellant came to his parents’ neighboring home and asked him to help load a deer
into a truck. Jones assisted, but observed that the object was not a deer but rather a
human body that he recognized as the person who had been staying with appellant.
Appellant then threatened Jones and his family with harm if he did not help. Jones
helped appellant, then returned to his parents’ home. The following morning, he
told his father about the incident.
11} Rachel Canode testified that, as a friend of appellant’s sister, she knew
appellant. Canode explained that she was at her mother’s house on November 29,
2013 when appellant came by to look for her mother to sell some rings. Canode
told appellant that her mother was at a friend’s house, and that she and her twelveyear-old daughter (M.C.) were also getting ready to walk to that house. Canode
stated that while appellant walked with them, he kept putting his arms around her
and grabbing her breasts and legs. Canode testified that the second or third time
appellant put his arms around her, a knife fell from appellant’s coat. When they
arrived at appellant’s sister’s house (the house where appellant was living), he
started to walk up the sidewalk to the home while Canode attempted to escape his
grasp. Ultimately, Canode’s daughter (M.C.) grabbed appellant’s arm and appellant
put the knife to her throat. Canode stated that she and her daughter then fled to her
mother’s house.
(U 12} Wellston Police Department Officer Steve Wilbur testified that he was at
the fire station when he heard the radio call about the crash and the body in the
truck bed. Officer Wilbur also explained that he later received a call from Rachel
Canode who stated that appellant attempted to force her and her daughter into a
house. Officer Wilbur testified that he met with Canode, then walked to the home
where appellant had been living. When no one answered the door, Officer Wilbur
looked in the windows. Blood could be seen on the porch and inside the house on
a couch and a knife. Officer Wilbur also found a single shoe in the driveway.
3

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 4 of 26 PAGEID #: 2532

{f 13} BCI Agent Todd Fortner testified that he processed the crime scene at the
home and found no signs of struggle. Fortner observed two couches, one with and
one without bloodstains, a wooden chair, a lamp, a table and a small radio. None of
the furniture had been overturned or broken. Because one couch and the door area
contained all of the bloodstains, Fortner testified that, based on his experience, he
believed that at the time of the attack the victim was either lying or sitting on the
couch.
{If 14} BCI Forensic Scientist (DNA Section) Andrea Weisenburger testified that
(1) the knife blade recovered from appellant’s home contained Patrick Morgan’s
blood, (2) the knife handle had mostly Morgan’s blood, but also some of appellant’s
blood, (3) Morgan’s blood appeared on appellant’s jeans, and (4) the truck’s air bag
had mostly Morgan’s blood, but also some of appellant’s blood.
{f 15} Franklin County forensic pathologist John Daniels testified that he
performed Patrick Morgan’s autopsy. The autopsy revealed multiple stab wounds
to Morgan’s face, eye and neck, including a wound through his eye and one inch
into his brain. In total, Morgan had 24 wounds, including defensive wrist wounds.
Daniels testified that the manner of death was homicide.
(T1 16} Ohio Department of Rehabilitation and Corrections Parole Officer Brett
McRoberts testified that on November 29, 2013, appellant was under his
supervision while on community control after his judicial release. McRoberts noted
that appellant had been living at a homeless shelter in Athens, but McRoberts did
not know that appellant had moved to Wellston.
17} At the close of the state’s evidence, appellant’s counsel requested a Crim.R.
29 motion for dismissal of Count 8 of the indictment (rape). The trial court denied
the motion.
18} Michelle Vance, appellant’s sister, testified that her brother and his
roommate, Morgan, were living at her home. She explained that she offered the two
a place to stay after they had been removed from Timothy House, an Athens shelter.
19} Phillip Lemaster testified that Jay Poe told him that Brian Canode, Rachel
Canode’s brother, wanted to talk with him. Lemaster stated that Brian Canode
asked him to assault appellant in exchange for heroin, and that he agreed to do so.
Brian Canode and Lemaster parked at Brian Canode’s mother’s house, then
Lemaster, Canode and Jay Poe, who had been waiting at the Canode home, walked
to appellant’s house. Lemaster stated that appellant’s truck was not at the house and
when no one answered their knock, Brian Canode took Lemaster home.
20} Brian Canode, however, denied any agreement with Lemaster to attack
appellant. Canode also testified that he, Rachel Canode’s brother, went to
appellant’s home that evening, but because he did not see the truck that his sister
4

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 5 of 26 PAGEID #: 2533

%IS
described, he left the residence. Against the advice of counsel, appellant chose to
exercise his right to testify. On the night in question, appellant and Morgan were
abusing drugs and alcohol. Appellant claimed that Rachel Canode’s brother and
several other men came to the house with bats and a knife and attacked him and
Morgan. Appellant testified that the men beat him with a bat and raped him with a
stick, but appellant managed to drag Morgan from the house and screamed for help.
Appellant left the home to get help, but because he was unsuccessful in that
endeavor, he returned to the house to save Morgan. After the men overwhelmed
appellant, the men forced appellant into the truck and threw Morgan into the truck
bed. Appellant testified that he did not kill Morgan, that he did not grab Rachel
Canode and that he did not attempt to restrain Canode or her daughter. Appellant,
however, admitted that officers found his knife at the scene and that his knife
contained Morgan’s blood.
21} After the four-day trial, the jury found appellant guilty of: Count 1
aggravated murder R.C. 2903.01(D), Count 2 murder R.C. 2903.02(A), Count 3
murder R.C. 2903.02(B)), Count 4 felonious assault R.C. 2903.11(A)(1), Count 5
felonious assault R.C. 2903.11(A)(2), and Count 9 tampering with evidence R.C.
2921.12(A). The jury also found appellant not guilty of: Count 6 kidnapping R.C.
2905.01(A)(4), Count 7 abduction R.C. 2905.02(A)(2), Count 8 attempted rape
R.C. 2923.02(A)/ 2907.02(A)(2), Count 10 abduction R.C. 2905.02(A)(2), and
Count 11 kidnapping R.C. 2905.01(B)(2).
22} The trial court sentenced appellant to serve life in prison without parole on
count one (aggravated murder) and thirty-six months on count 9 (tampering with
evidence), with the sentences to be served consecutively to one another. At that
point, appellant filed a pro se (1) Crim.R. 33 motion for new trial and argued that
irregularities existed in the court proceedings, including jury and prosecutorial
misconduct, and that new evidence supported his self-defense claim, and (2) a
Crim.R. 29 motion for judgment of acquittal. This appeal followed.
State v. Vance, 4th Dist. No. 16CA11, 2018 WL 1660068, at *1-4 (Ohio Ct. App. March 22,
2018). Petitioner raised the following assignments of error:
FIRST ASSIGNMENT OF ERROR:
“THE TRIAL COURT ABUSED ITS DISCRETION WHEN IT REFUSED TO
HOLD A HEARING OR REVIEW APPELLANT VANCE’S MOTION FOR
NEW TRIAL. FIFTH AND FOURTEENTH AMENDMENTS TO THE UNITED
STATES CONSTITUTION; ARTICLE I, SECTION 10 OF THE OHIO
CONSTITUTION; CRIM.R. 33.”
SECOND ASSIGNMENT OF ERROR:

5

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 6 of 26 PAGEID #: 2534

“THE TRIAL COURT ERRED BY FAILING TO PROPERLY NOTIFY
APPELLANT VANCE THAT HE WAS SUBJECT TO A DISCRETIONARY
TERM OF UP TO THREE YEARS OF POST-RELEASE CONTROL AT THE
SENTENCING HEARING. ADDITIONALLY, ANY NOTIFICATION
REGARDING POST-RELEASE CONTROL WAS OMITTED FROM THE
SENTENCING ENTRY. THESE FAILURES VIOLATED VANCE’S
CONSTITUTIONAL RIGHTS AS GUARANTEED BY THE FIFTH AND
FOURTEENTH AMENDMENTS TO THE UNITED STATES CONSTITUTION
AND ARTICLE I, SECTION 10 OF THE OHIO CONSTITUTION.”
THIRD ASSIGNMENT OF ERROR:
“THE SENTENCE IMPOSED BY THE TRIAL COURT SHOULD BE
REVERSED AND REMANDED AS IT DOES NOT COMPORT WITH THE
PURPOSES OF FELONY SENTENCING. FIFTH AND FOURTEENTH
AMENDMENTS TO THE UNITED STATES CONSTITUTION; ARTICLE I,
SECTION 10 OF THE OHIO CONSTITUTION; R.C. 2929.11.”
FOURTH ASSIGNMENT OF ERROR:
“THE TRIAL COURT FAILED TO SPECIFY ITS CONSECUTIVE
SENTENCING FINDINGS IN ITS JUDGMENT ENTRY. R.C. 2929.14(C)(4).”
Id. at 1. On March 22, 2018, the appellate court overruled Petitioner’s first and third
assignments of error, found the second and fourth assignments of error to be well-taken, and
remanded the case to the trial court to address the post release control for tampering with
evidence and the findings for consecutive sentences. Id. On July 5, 2018, the Ohio Supreme
Court declined to accept jurisdiction of the appeal. State v. Vance, 153 Ohio St.3d 1434 (Ohio
2018). On September 26, 2018, the Ohio Supreme Court denied the motion for reconsideration.
State v. Vance, 153 Ohio St.3d 1485 (Ohio 2018).
{][ 5} While his appeal was pending, appellant filed various pro se motions,
including a pro se petition for postconviction relief on a pro se petition to vacate or
set aside judgment of conviction or sentence and a pro se motion for expert
assistance. The trial court denied the postconviction relief petition and indicated
that (1) appellant did not attach materials in support of his petition, and (2) no
substantive grounds exist for relief. In addition, on November 1,2017 the trial court
issued an entry that chronicled and denied all 21 of appellant’s motions because the
court either lacked jurisdiction to consider certain motions, some motions did not
set forth a request that the court could grant, or some motions are nonsensical. Thus,
6

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 7 of 26 PAGEID #: 2535

7b- Sll't

ft-*0
the trial court denied the petition and found that appellant is not entitled to relief as
provided in R.C. 2953.21. On October 29, 2018, this court affirmed the denial of
appellant’s postconviction relief petition. See State v. Vance, 4th Dist. Jackson No.
17CA9, 2018-Ohio-4479.
{^J 6} On July 27, 2018, appellant filed a[n] App. R. 26(B) pro se application to
reopen his appeal. We declined to grant appellant’s application because the
application was untimely, failed to assign error and failed on the merits. See State
v. Vance, 4th Dist. Jackson No. 16CA11, 2018-0hio-1313.
7} On May 31, 2018, after remand, the trial court held a R.C. 2929.19
resentencing hearing with appellant represented by counsel. The court’s order on
resentencing reiterated the prior guilty verdicts and terms of imprisonment, but
notified appellant of the optional three-year postrelease control term and placed on
the record the trial court’s reasoning for consecutive sentences. The court informed
appellant that upon completion of the full sentence, he will serve a five year
mandatory period of postrelease control on count 1, and a discretionary period of
three years of postrelease control on count 9 under the direction of the Adult Parole
Authority. The court’s order further indicated that a violation of postrelease control
will result in a sanction of one-half of the sentence imposed and, should appellant
commit a new felony while on postrelease control, the greater of the balance of the
postrelease control time or one year would be imposed as an additional prison term.
This appeal followed.
State v. Vance, 4th Dist. No. 18CA2, 2018 WL 6843756, at *2 (Ohio Ct. App. Dec. 17,
2018). Petitioner asserted the following assignments of error:
FIRST ASSIGNMENT OF ERROR:
“APPELLANT, LEWIS J. VANCE RAISED THE ISSUE OF HIS TRIAL
COUNSEL, WILLIAM J. MOONEY # (0002729) AT THE RE-SENTENCING
HEARING ON REMAND. ATTORNEY MOONEY WAS AGAIN
UNPREPARED AND REFUSED TO ARGUE VANCE’S CASE. HE
CONTINUED
WITH
HIS
(ADVERSARIAL
AND
STRAINED
COMMUNICATION) WITH VANCE. APPELLANT VANCE ASKS
ATTORNEY MOONEY IN PHONE CONVERSATION ON JUNE 29TH, 2018
TO FILE HIS APPEAL ON THE RE-SENTENCING REMAND. MOONEY
REFUSED TO FILE VANCE’S APPEAL AND SAID HIS OFFICE DOES NOT
FILE AFTER DEFENDING A CLIENT AT TRIAL. VANCE SHOWED WHERE
ATTORNEY MOONEY FILED HIS DIRECT APPEAL ON DECEMBER 20TH,
2016 AFTER TELLING VANCE HE WILL NOT FILE THIS FOR HIM.
APPELLANT, LEWIS J. VANCE AGAIN ASK (SIC) TRIAL COURT FOR NEW
COUNSEL AT THAT REMAND HEARING. SIXTH AMENDMENT, UNITED
STATES
CONSTITUTION;
ARTICLE I,
SECTION
10,
OHIO
CONSTITUTION.”
7

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 8 of 26 PAGEID #: 2536

ft**
SECOND ASSIGNMENT OF ERROR:
“APPELLANT, LEWIS J. VANCE RAISED THE ISSUE OF THE SENTENCE
IMPOSED BY THE TRIAL COURT FOR ITS EXCESSIVENESS AND
UNCONSTITUTIONAL WRONG DOINGS. VANCE WAS REMANDED TO
TRIAL COURT FOR ONE PART OF THE UNCONSTITUTIONAL ABUSE OF
HIS SENTENCE AND THE CASE SHOULD AGAIN BE REVERSED AND
REMANDED AS IT DOES NOT COMPORT WITH THE PURPOSES OF
FELONY SENTENCING. FIFTH AND FOURTEENTH AMENDMENTS,
UNITED STATES CONSTITUTION; ARTICLE 1, SECTION 10, OHIO
CONSTITUTION, R.C. 2929.11 AND SHOULD BE SUSTAINED AND
REMANDED TO TRIAL COURT FOR THESE ISSUES.”
THIRD ASSIGNMENT OF ERROR:
“TRIAL COURT AGAIN ABUSED ITS DISCRETION WHEN ON REMAND
FOR RE-SENTENCING. VANCE WAS AGAIN DISCRIMINATED AGAINST
AND TRIAL COURT USED BIAS (SIC) JUDGMENTS OF THE FACTS OF
VANCE’S CASE. APPELLANT, LEWIS J. VANCE TRIED AGAIN TO HAVE
COUNSEL AND TRIAL COURT REVIEW THE TIME IN WHICH HIS TRIAL
LASTED, CASE NO. 14-CR-0118 AS PART OF THE ABUSE OF DISCRETION
AND HIS DUE PROCESS RIGHTS ALONG WITH THESE OTHER ISSUES OF
THIS ABUSE. VANCE’S NEW TRIAL, CRIM. R. 33 AND TRIAL COURT
REFUSING HIM A HEARING. THERE WAS THE ABUSE OF THE JURY
REQUEST VANCE MADE AT TRIAL FOR A NEW JURY, A HEARING WAS
CONDUCTED IN ACCORDANCE WITH REMMER AND R.C. 2945.03
WHERE VANCE ASK FOR MEMBERS TO BE REMOVED AND PROBLEMS
BEGAN WITH COUNSEL THERE ONCE AGAIN. ON AUGUST 10TH, 2018
IN A NOTICE OF THE TRANSITION OF THE RECORDS IT STATES THAT
THE RECORD DID NOT CONTAIN A TRANSCRIPT. IN VANCE’S
CORRECTIONS OF THAT APPEAL HE DID ASK FOR A COMPLETE COPY
OF THOSE TRANSCRIPTS FOR THE RECORDS. AGAIN AN ABUSE OF
DISCRETION FROM THE TRIAL COURT. APPELLANT VANCE FILES (PRO
SE), HE DOES NOT HAVE A COPY OF THE TRANSCRIPTS OF
PROCEEDINGS OR OTHER REQUEST HE HAS MADE TO THE COURT OR
COUNSEL FOR HIM TO FILE WITHIN HIS CASES. FIFTH AND
FOURTEENTH AMENDMENTS, UNITED STATES CONSTITUTION;
ARTICLE I, SECTION 10, OHIO CONSTITUTION AND EIGHTH
AMENDMENT, UNITED STATES CONSTITUTION, ARTICLE 1, SECTION 9
OHIO CONSTITUTION. TRIAL COURT CONTINUES TO RULE IN BAD
FAITH ON VANCE’S REQUEST AND WITHIN HEARINGS WITH BIAS AND
DISCRIMINATING JUDGMENTS.”

8

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 9 of 26 PAGEID #: 2537

ft-**Id. at * 1. On December 17, 2018, the appellate court affirmed the judgment of the trial court.
Id. On April 3, 2019, the Ohio Supreme Court declined to accept jurisdiction of the appeal.
State v. Vance, 155 Ohio St.3d 1414 (Ohio 2019).
On March 18, 2019, Petitioner filed this pro se habeas corpus petition. He asserts that the
trial court improperly denied him a hearing on his motion for a new trial (claim one); that his
sentence is inhumane (claim two); that his convictions are against the manifest weight of the
evidence and the evidence is constitutionally insufficient to sustain his convictions (claim three);
and that he was denied the effective assistance of trial and appellate counsel (claim four). It is
the position of the Respondent that Petitioner’s claims are procedurally defaulted or without
merit.
II. Motion for Evidentiary Hearing, Depositions and the Appointment of Counsel
Petitioner has filed a request for the appointment of counsel, an evidentiary hearing, and
“depositional testimony.” In support, Petitioner states that he acted in self defense. He
complains that one Jeremy Poe did not appear to testify at trial. He claims that DVDs and
videotapes will show that he acted in self defense. He asserts that his attorney improperly failed
to investigate. Petitioner also refers to a purported confession from one of the assailants against
him. He has attached copies of his own handwritten statements and other record documents.
(ECF No. 22, PAGEID # 352-429.) None of these documents, however, support Petitioner’s
claim of actual innocence. The Court is unable to locate the purported confession referred to by
the Petitioner. Petitioner’s claim of actual innocence entirely lacks support.
The United States Supreme Court has held that a prisoners’ post-conviction right to
counsel extends only to the first appeal of right and no further. Pennsylvania v. Finley, 481 U.S.
551, 555 (1987) (“We have never held that prisoners have a constitutional right to counsel when

9

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 10 of 26 PAGEID #: 2538

mounting collateral attacks upon their convictions and we decline to so hold today.”)- Habeas
proceedings are considered to be civil in nature, and a petitioner has no constitutional right to
counsel in habeas corpus proceedings. Post v. Bradshaw, 422 F.3d 419,425 (6th Cir. 2005)
(citing Coleman v. Thompson, 501 U.S. 722, 752-53 (1991)); Cobas v. Burgess, 306 F.3d 441,
444 (6th Cir. 2002). Rather, “[wjhenever the United States magistrate judge or the court
determines that the interests of justice so require, representation may be provided for any
financially eligible person who ... is seeking relief under section 2241, 2254, or 2255 of title
28.” 18 U.S.C. § 3006A(a)(2) and § 3006A(a)(2)(B). “The decision to appoint counsel for a
federal habeas petitioner is within the discretion of the court and is required only where the
interests of justice or due process so require.” Mira v. Marshall, 806 F.2d 636, 638 (6th Cir.
1986) (citations omitted). The appointment of counsel is mandatory only where the record
indicates that an evidentiary hearing is required to resolve a petitioner’s claims. See Rule 8 of
the Rules Governing Section 2254 Cases in the United States District Courts. In assessing
whether to exercise its discretion in appointing counsel on a petitioner’s behalf, the Court should
consider “the legal and factual complexity of the case, the petitioner’s ability to investigate and
present his claims- and any other relevant factors.” Matthews v. Jones, No. 5:13-cv-1850, 2015
WL 545752, at *3 (N.D. Ohio Jan. 22, 2015) (citations omitted). “Where the issues involved can
be properly resolved on the basis of the state court record, a district court does not abuse its
discretion in denying a request for court-appointed counsel.” Poulton v. Warden, Ross Corr.
Inst., No. 2:15-CV-02352, 2018 WL 527286, at * 6 (S.D. Ohio Jan. 24, 2018) (citations omitted).
The record does not indicate that an evidentiary hearing is required to resolve Petitioner’s
claims, or that this case so complex that the interests of justice or due process require the
appointment of counsel on Petitioner’s behalf.

10

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 11 of 26 PAGEID #: 2539
ft

Accordingly, Petitioner’s request for appointment of counsel, an evidentiary hearing, and
“depositional testimony” (ECF No. 22) is DENIED.
III. Procedural Default
Congress has provided that state prisoners who are in custody in violation of the
Constitution or laws or treaties of the United States may apply to the federal courts for a writ of
habeas corpus. 28 U.S.C. § 2254(a). In recognition of the equal obligation of the state courts to
protect the constitutional rights of criminal defendants, and in order to prevent needless friction
between the state and federal courts, a state criminal defendant with federal constitutional claims
is required to present those claims to the state courts for consideration. 28 U.S.C. § 2254(b), (c).
If the prisoner fails to do so, but still has an avenue open to present the claims, then the petition
is subject to dismissal for failure to exhaust state remedies. Id.; Anderson v. Harless, 459 U.S. 4,
6 (1982) (per curiam) (citing Picard v. Connor, 404 U.S. 270, 275-78 (1971)). Where a
petitioner has failed to exhaust claims but would find those claims barred if later presented to the
state courts, “there is a procedural default for purposes of federal habeas.” Coleman v.
Thompson, 501 U.S. 722, 735 n.l (1991).
The term “procedural default” has come to describe the situation where a person
convicted of a crime in a state court fails (for whatever reason) to present a particular claim to
the highest court of the State so that the State has a fair chance to correct any errors made in the
course of the trial or the appeal before a federal court intervenes in the state criminal process.
This “requires the petitioner to present ‘the same claim under the same theory’ to the state courts
before raising it on federal habeas review.” Hicks v. Straub, 377 F.3d 538, 552-53 (6th Cir.
2004) (quoting Pillette v. Foltz, 824 F.2d 494, 497 (6th Cir. 1987)). One of the aspects of “fairly
presenting” a claim to the state courts is that a habeas petitioner must do so in a way that gives

11

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 12 of 26 PAGEID #: 2540
ft

the state courts a fair opportunity to rule on the federal law claims being asserted. That means
that if the claims are not presented to the state courts in the way in which state law requires, and
the state courts therefore do not decide the claims on their merits, neither may a federal court do
so. As the Supreme Court found in Wainwright v. Sykes, 433 U.S. 72, 87 (1977), “contentions of
federal law which were not resolved on the merits in the state proceeding due to respondent’s
failure to raise them there as required by state procedure” also cannot be resolved on their merits
in a federal habeas case—that is, they are “procedurally defaulted.”
To determine whether procedural default bars a habeas petitioner’s claim, courts in the
Sixth Circuit engage in a four-part test. See Maupin v. Smith, 785 F.2d 135, 138 (6th Cir. 1986);
see also Scuba v. Brigano, 259 F. App’x 713, 718 (6th Cir. 2007) (following the four-part
analysis of Maupin). First, the court must determine that there is a state procedural rule that is
applicable to the petitioner’s claim and that the petitioner failed to comply with the rule. Second,
the court must determine whether the state courts actually enforced the state procedural sanction.
Third, the court must determine whether the forfeiture is an adequate and independent state
ground on which the state can rely to foreclose review of a federal constitutional claim. Maupin,
785 F.2d at 138. Finally, if “the court determines that a state procedural rule was not complied
with and that the rule [has] an adequate and independent state ground, then the petitioner” may
still obtain review of his or her claims on the merits if the petitioner establishes: (1) cause
sufficient to excuse the default and (2) that he or she was actually prejudiced by the alleged
constitutional error. Id.
In claim three, Petitioner asserts that his convictions are against the manifest weight of
the evidence and that the evidence is constitutionally insufficient to sustain his convictions. In
claim four, Petitioner asserts, inter alia, that he was denied the effective assistance of trial

12

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 13 of 26 PAGEID #: 2541
SH*°

counsel. Petitioner failed to raise either of the foregoing claims on direct appeal, where he was
represented by new counsel. He may now no longer do so under Ohio’s doctrine of res judicata.
See State v. Cole, 2 Ohio St. 3d 112, 115 (1982); State v. Perry, 10 Ohio St. 2d 175, 180 (1967)
(claims must be raised on direct appeal, if possible, or they will be barred by the doctrine of res
judicata.). Petitioner thereby has waived these claims for federal habeas corpus review. The
state courts were never given an opportunity to enforce this procedural rule due to the nature of
Petitioner’s procedural default.
Petitioner asserted a claim for ineffective assistance of trial counsel in his petition for
post-conviction relief; however, the state appellate court explicitly refused to address the merits
of that claim as barred under Ohio’s doctrine of res judicata. State v. Vance, 2018 WL 5796229,
at *3.
Res judicata applies to proceedings involving postconviction relief. Black at 10,
citing State v. Szefcyk, 77 Ohio St.3d 93, 95, 671 N.E.2d 233 (1996). “Under the
doctrine of res judicata, a final judgment of conviction bars a convicted defendant
who was represented by counsel from raising and litigating in any proceeding
except an appeal from that judgment, any defense or any claimed lack of due
process that was raised or could have been raised by the defendant at the trial, which
resulted in that judgment of conviction, or on an appeal from that judgment.” State
v. Perry, 10 Ohio St.2d 175, 226 N.E.2d 104 (1967). “Therefore, ‘any issue that
could have been raised on direct appeal and was not is res judicata and not subject
to review in subsequent proceedings.’” Black at f 10, citing State v. Segines, 8th
Dist. Cuyahoga No. 99789,2013-Ohio-5259, f 8, quoting State v. Saxon, 109 Ohio
St.3d 176, 2006-0hio-1245, 846 N.E.2d 824, f 16.
{^f 12} Although appellant pursued his postconviction petition pro se, counsel
represented him at trial. Moreover, appellant had a different counsel for his direct
appeal. Thus, appellant’s direct appeal should have addressed the issue of
ineffective assistance of counsel. See State v. Vance, 4th Dist. Jackson No. 16CA11,
2018-Ohio-1313.
Id.
Ohio’s doctrine of res judicata is adequate and independent under the third part of the
Maupin test. To be “independent,” the procedural rule at issue, as well as the state court’s
13

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 14 of 26 PAGEID #: 2542

ZkSHef

reliance thereon, must rely in no part on federal law. See Coleman, 501 U.S. at 732-33. To be
“adequate,” the state procedural rule must be firmly established and regularly followed by the
state courts. Ford v. Georgia, 498 U.S. 411, 423 (1991). “[0]nly a ‘firmly established and
regularly followed state practice’ may be interposed by a State to prevent subsequent review by
this Court of a federal constitutional claim.” Id. (quoting James v. Kentucky, 466 U.S. 341, 348351 (1984)); see also Barr v. City of Columbia, 378 U.S. 146,149 (1964); NAACP v. Alabama
ex rel. Flowers, 377 U.S. 288, 297 (1964). The United States Court of Appeals for the Sixth
Circuit has consistently held that Ohio’s doctrine of res judicata, i.e., the Perry rule, is an
adequate ground for denying federal habeas relief. Lundgren v. Mitchell, 440 F.3d 754, 765 (6th
Cir. 2006); Coleman v. Mitchell, 268 F.3d 417,427-29 (6th Cir. 2001), cert, denied sub nom.
Coleman v. Bagley, 535 U.S. 1031 (2002); Seymour v. Walker, 224 F.3d 542, 555 (6th Cir.
2000), cert, denied, 532 U.S. 989 (2001); Byrdv. Collins, 209 F.3d 486, 521-22 (6th Cir. 2000)
cert, denied, 531 U.S. 1082 (2001); Norris v. Schotten, 146 F.3d 314, 332 (6th Cir.), cert, denied,
525 U.S. 935 (1998).
Ohio courts have consistently refused, in reliance on the doctrine of res judicata, to
review the merits of claims because they are procedurally barred. See Cole, 2 Ohio St.3d at 112;
State v. Ishmail, 67 Ohio St.2d 16, 18 (1981). Additionally, the doctrine of res judicata serves
the state’s interest in finality and in ensuring that claims are adjudicated at the earliest possible
opportunity. With respect to the independence prong, the Court concludes that Ohio’s doctrine
of res judicata in this context does not rely on or otherwise implicate federal law. Accordingly,
the Court is satisfied from its own review of relevant case law that the Perry rule is an adequate
and independent ground for denying relief.

14

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 15 of 26 PAGEID #: 2543
7?*r$HeZ.

7?**
To the extent that Petitioner intends to assert a claim of ineffective assistance of counsel
at his re-sentencing hearing, he has also waived this claim. The state appellate court dismissed
the claim based on Petitioner’s failure to provide a copy of the transcripts:
7} On May 31, 2018, after remand, the trial court held a R.C. 2929.19
resentencing hearing with appellant represented by counsel. The court’s order on
resentencing reiterated the prior guilty verdicts and terms of imprisonment, but
notified appellant of the optional three-year postrelease control term and placed on
the record the trial court’s reasoning for consecutive sentences. The court informed
appellant that upon completion of the full sentence, he will serve a five year
mandatory period of postrelease control on count 1, and a discretionary period of
three years of postrelease control on count 9 under the direction of the Adult Parole
Authority. The court’s order further indicated that a violation of postrelease control
will result in a sanction of one-half of the sentence imposed and, should appellant
commit a new felony while on postrelease control, the greater of the balance of the
postrelease control time or one year would be imposed as an additional prison term.
This appeal followed.
... [W]e observe that the record before us does not contain a transcript of the trial
court’s May 31, 2018 resentencing hearing. Although appellant filed a request for
transcript, a notice of transmission of the record without a transcript was filed
August 7, 2018. App. R. 9 provides the procedure to make a transcript a part of the
record. This rule also provides alternatives if a transcript is not available. See
App.R. 9(C), (D).

(U 9} It is important to understand that “When portions of the transcript necessary
for resolution of assigned errors are omitted from the record, the reviewing court
has nothing to pass upon and thus, as to the assigned errors, the court has no choice
but to presume the validity of the lower court’s proceedings, and affirm.” Knapp v.
Edwards Laboratories, 61 Ohio St.2d 197, 199,400 N.E.2d 384 (1980). Thus, due
to appellant’s failure in the case sub judice to file a transcript of the resentencing
hearing, we presume the regularity of that proceeding and affirm the trial court’s
judgment. See State ex rel. Hoag v. Lucas Cty. Bd. of Elections, 125 Ohio St.3d 49,
2010-Ohio-1629, 925 N.E.2d 984, f 12, citing Christy v. Summit Cty. Bd. of
Elections, 77 Ohio St.3d 35, 39, 671 N.E.2d 1 (1996); State ex rel. Duncan v.
Portage Cty. Bd. of Elections, 115 Ohio St.3d 405, 2007-Ohio-5346, 875 N.E.2d
578,1f 17. Once again, appellant has the responsibility to provide the reviewing
court with a record of the facts, testimony, and evidentiary matters that are
necessary to support the appellant’s assignments of error. Wozniak v. Wozniak, 90
Ohio App.3d 400, 409, 629 N.E.2d 500, 506 (9th Dist. 1993); Volodkevich v.
Volodkevich, 48 Ohio App.3d 313, 314, 549 N.E.2d 1237, 1238-1239 (9th Dist.
1989). He failed to do so, and we affirm the trial court’s judgment.

15

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 16 of 26 PAGEID #: 2544
T&jrv©3
***

To the extent that appellant alleges that counsel rendered ineffective assistance at
the resentencing hearing. . . we presume the regularity of the proceedings due to
the omission of the resentencing transcript. Thus, we overrule appellant’s first
assignment of error.
State v. Vance, 2018 WL 6843756, at *3-4. Petitioner has thereby procedurally defaulted this
claim for review in these proceedings. See Onunwor v. Moore, 655 F. App’x 369, 372-73 (6th
Cir. 2016) (citing Gonzales v. Wolfe, 290 F. App’x 799, 804-05 (6th Cir. 2008) (holding that Ohio
Appellate Rule 9(B) was an adequate and independent state ground to bar federal review).
/

Petitioner also asserts in claim four that he was denied the effective assistance of
appellate counsel. He likewise has waived this claim for review by failing to comply with the
time requirements of Ohio’s Rule 26(B). The state appellate court denied Petitioner’s Rule
26(B) application as untimely. See Scuba v. Brigano, 527 F.3d 479, 488 (6th Cir. 2007)
(enforcing the procedural default under these circumstances).
Thus, Petitioner has waived habeas corpus claims three and four. He may still secure
review of these claims on the merits if he demonstrates cause for his failure to follow the state
procedural rules, as well as actual prejudice from the constitutional violations that he alleges.
‘“[CJause’ under the cause and prejudice test must be something external to the petitioner,
something that cannot fairly be attributed to him[,j V.. some objective factor external to the
defense [that] impeded ... efforts to comply with the State’s procedural rule.’” Coleman, 501
U.S. at 753 (quoting Murray v. Carrier, All U.S. 478, 488 (1986)). It is Petitioner’s burden to
show cause and prejudice. Hinkle v. Randle, Warden, 271 F.3d 239, 245 (6th Cir. 2001) (citing
Lucas v. O’Dea, 179 F.3d 412, 418 (6th Cir. 1999) (internal citation omitted)). A petitioner’s pro
se status, ignorance of the law, or ignorance of procedural requirements are insufficient bases to
excuse a procedural default. Bonilla v. Hurley, 370 F.3d 494, 498 (6th Cir. 2004). Instead, in
16

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 17 of 26 PAGEID #: 2545

order to establish cause, a petitioner “must present a substantial reason that is external to himself
and cannot be fairly attributed to him.” Hartman v. Bagley, 492 F.3d 347, 358 (6th Cir. 2007).
Petitioner has failed to establish any cause whatsoever for his procedural defaults.
The United States Supreme Court has held that a claim of actual innocence may be raised
“to avoid a procedural bar to the consideration of the merits of [a petitioner’s] constitutional
claims.” Schlup v. Delo, 513 U.S. 298, 326-27 (1995). “[I]n an extraordinary case, where a
constitutional violation has probably resulted in the conviction of one who is actually innocent, a
federal habeas court may grant the writ even in the absence of a showing of cause for the
procedural default.” Murray, All U.S. at 496. In Schlup, the Supreme Court held that a credible
showing of actual innocence was sufficient to authorize a federal court in reaching the merits of
an otherwise procedurally-barred habeas petition. Id. at 317. However, a claim of actual
innocence is “‘not itself a constitutional claim, but instead a gateway through which a habeas
petitioner must pass to have his otherwise barred constitutional claim considered on the merits.’”
Id. at 315 (quoting Herrera, 506 U.S. at 404). The actual innocence exception to procedural
default allows a petitioner to pursue his constitutional claims if it is “more likely than not” that
new evidence—i.e., evidence not previously presented at trial—would allow no reasonable juror
to find him guilty beyond a reasonable doubt. Souter v. Jones, 395 F.3d 577 (6th Cir. 2005).
Petitioner has failed to meet this standard here.
As discussed, Petitioner asserts that he is actually innocent. Petitioner states that he has
obtained a notorized confession from a guilty assailant, and that trial video exhibits, and
inconsistent statements from prosecution witnesses support his claim of actual innocence. (See
Additional Exhibiting Evidentiary Documents Newly Discovered Evidence, ECF No. 6.)
However, nothing in the record supports Petitioner’s claim of actual innocence.

17

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 18 of 26 PAGEID #: 2546

faSHoS
Petitioner has procedurally defaulted habeas corpus claims three and four.
IV. Claim One
In claim one, Petitioner asserts that the trial court abused its discretion by in denying his
motion for a new trial without a hearing. The state appellate court rejected this claim as follows:
[AJppellant asserts that the trial court erred by refusing to hold a hearing or to
conduct a review of appellant’s motion for new trial.
{f 24} Generally, the decision to grant a new trial is within a trial court’s discretion,
and a ruling on a motion for a new trial will not be disturbed on appeal absent an
abuse of that discretion. State v. Schiebel, 55 Ohio St.3d 71, 564 N.E.2d 54 (1990);
State v. Williams, 43 Ohio St.2d 88, 330 N.E.2d 891 (1975). An abuse of discretion
“implies that the court’s attitude [was] unreasonable, arbitrary, or unconscionable.”
State v. Adams, 62 Ohio St.2d 151, 157, 404 N.E.2d 144 (1980). “A decision is
unreasonable if there is no sound reasoning process that would support that
decision.” AAAA Enterprises, Inc. v. River Place Community Redevelopment, 50
Ohio St.3d 157, 161, 553 N.E.2d 597 (1990).
25} Appellant filed a pro se motion for new trial, but the trial court refused to
rule on appellant’s pro se motion. Appellant contends that no sound reasoning
process supported the court’s decision, and, thus, the trial court’s refusal to consider
the motion constitutes an abuse of discretion. The state points put that the trial court
refused to rule on the pro se motion because appellant had legal representation and
that neither the United States Constitution nor the Ohio Constitution or case
authority permits hybrid representation.
{f 26} “Although appellant has the right either to appear pro se or to have counsel,
he has no corresponding right to act as co-counsel on his own behalf.” State v.
Thompson, 33 Ohio St.3d 1, 6-7, 514 N.E.2d 407 (1987). The Supreme Court of
Ohio has reaffirmed that principle and held that “in Ohio, a criminal defendant has
the right to representation by counsel or to proceed pro se with the assistance of
standby counsel. However, these two rights are independent of each other and may
not be asserted simultaneously.” State v. Martin, 103 Ohio St.3d 385,2004-Ohio5471, 816 N.E.2d 227, paragraph one of the syllabus.
{f 27} In the case sub judice, appellant attempted to make multiple pro se filings
while he had legal representation. The trial court aptly noted that appellant had legal
representation and advised counsel to review the pro se filings and file any
necessary motion within 14 days with regard to any relevant issues raised in the pro
se documents. Once again, Ohio courts need not address pro se motions when the
defendant enjoys the benefit of counsel. See State v. Smith, 4th Dist. Highland No.
09CA29,2010-0hio-4507, Tf 100 [“The trial court indicated that it would refuse to
consider motions filed by Smith because the court was appointing counsel to
18

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 19 of 26 PAGEID #: 2547
o(y

&3A
represent him. We are satisfied that the trial court did not err as, although a
defendant ‘has the right either to appear pro se or to have counsel, he has no
corresponding right to act as co-counsel on his own behalf.’ ”]; State v. Smith, 1st
Dist. Hamilton Nos. C-160836 and C-160837, 2017-Ohio-8558; State v.
Greenleaf, 11th Dist. Portage No. 2005-P-0017, 2006-0hio^4317. “When a
criminal defendant is represented by counsel and counsel does not join the
defendant’s pro se motion or otherwise indicate a need for the relief sought by the
defendant pro se, the trial court cannot properly consider the defendant’s pro se
motion.” Smith at H 32, citing State v. Davis, 10th Dist. Franklin No. 05AP-193,
2006-0hio-5039, 12; State v. Pizzaro, 8th Dist. Cuyahoga No. 94849, 2011—
Ohio-611, 7 [“One who is represented by counsel and who does not move the
court to proceed pro se, may not ‘act as co-counsel on his own behalf.’”, quoting
Greenleaf at f 70].
{f 28} Appellant, however, argues that State v. Keene, 4th Dist. Washington No.
16CA10, 2017-0hio-7058, mandates a different result. In Keene, the defendant,
prior to the scheduled sentencing hearing, sent two letters to the trial court, without
counsel’s assistance, and sought to withdraw his guilty pleas. Although the trial
court held a hearing and ruled on the defendant’s pro se motion in spite of counsel's
representation, the court was not required to do so. Once again, the Supreme Court
of Ohio has established that a defendant has either the right to representation by
counsel or the right to proceed pro se, but has no right to hybrid representation.
Martin, paragraph one of the syllabus.
{f 29} Accordingly, based upon the foregoing reasons we overrule appellant’s first
assignment of error.
State v. Vance, 2018 WL 1660068, at *4-5.
Petitioner’s claim that the trial court “abused its discretion” by misapplying Ohio law, does
not provide him relief. See Petrone v. Bunting, No. 5:13-cv-02187, 2015 WL 9918661, at *11
(N.D. Ohio Dec. 10, 2015) (citing Pudelski v. Wilson, 576 F.3d 595, 610 (6th Cir. 2009), cert,
denied, 560 U.S. 904 (2010)). “State law issues are not subject to habeas review[.]” Pudelski, 576
F.3d at 611 (citing Estelle v. McGuire, 502 U.S. 62, 67068 (1991)). “To establish a constitutional
due process claim, [petitioner] must demonstrate that the trial court’s denial of his motion for new
trial was ‘so egregious’ that it violated his right to a fundamentally fair trial.” Id. (citing Fleming
v. Metrish, 556 F.3d 520, 535 (6th Cir. 2009); Baze v. Parker, 371 F.3d 310, 324 (6th Cir. 2004).
The record does not reflect such circumstances here.
19

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 20 of 26 PAGEID #: 2548

fc+sfr
1^33
Petitioner had no right to hybrid representation under federal law. See Rojas v. Warden,
Ross Correctional Inst., No. 3:13-cv-2521, 2015 WL 631183, at *7 (N.D. Ohio Feb. 12, 2015)
(citing United States v. Mosely, 810 F./2d 93, 98 (6th Cir. 1987) (holding that a criminal defendant
has a constitutional right to be represented by counsel or to represent himself during criminal
proceedings, but not both.) (citing Faretta v. California, 422 U.S. 806 (1975)).
Sixth Circuit caselaw is clear that a criminal defendant does not have a
constitutional right to “hybrid representation.” United States v. Mosely, 810 F.2d
93, 98 (6th Cir. 1987). A defendant has a constitutional right to be represented by
counsel or to represent himself during his criminal proceedings, but not both. Id. at
97 (citing Faretta v. California, 422 U.S. 806, 95 S.Ct. 2525, 45 L.Ed.2d 562
(1975)). The Sixth Circuit explained: “The right to defend pro se and the right to
counsel have been aptly described as two faces of the same coin, in that waiver of
one constitutes a correlative assertion of the other.” Id. at 97-98 (quoting United
States v. Conder, 423 F.2d 904, 908 (6th Cir. 1970)) (internal quotation marks
omitted). Hybrid representation is generally prohibited because it increases the risk
of undue delay, jury confusion, and conflicts as to trial strategy. Id. at 98. When
counsel has “performed in a highly competent and professional manner” and the
defendant has been “given ample time to consult with his counsel over strategy,” it
is not an abuse of a court’s discretion to prohibit hybrid representation. Id.
Miller v. United States, 561 F. App’x 485, 488-89 (6th Cir. 2014). Because no clearly
established federal law supports the right to hybrid representation, this claim does not provide
Petitioner a basis for relief. See Salinas v. Hart, No. 15-167-HRW-CJS, 2019 WL 4794743, at
*21 (E.D. Ky. July 8, 2019). l
V. Claim Two - Standard of Review
Petitioner seeks habeas relief under 28 U.S.C. § 2254. The Antiterrorism and Effective
Death Penalty Act (“AEDPA”) sets forth standards governing this Court’s review of state-court
determinations. The United State Supreme Court has described AEDPA as “a formidable barrier

1 As a result, Petitioner also has waived the underlying claims he presented in his motion for a
new trial for review in these proceedings. See Whatley v. Warden, Ross Corr. Inst., No. 2:16-cv676, 2017 WL 1196168, at *5 (S.D. Ohio March 31,2017)).
20

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 21 of 26 PAGEID #: 2549

to federal habeas relief for prisoners whose claims have been adjudicated in state court” and
emphasized that courts must not “lightly conclude that a State’s criminal justice system has
experienced the ‘extreme malfunction’ for which federal habeas relief is the remedy.” Burt v.
Titlow, 571 U.S. 12, 20 (2013) (quoting Harrington v. Richter, 562 U.S. 86 (2011)); see also
Renico v. Lett, 559 U.S. 766, 773 (2010) (“AEDPA ... imposes a highly deferential standard for
evaluating state-court rulings, and demands that state court decisions be given the benefit of the
doubt.” (internal quotation marks, citations, and footnote omitted)).
The factual findings of the state appellate court are presumed to be correct.
In a proceeding instituted by an application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a State court, a determination of a
factual issue made by a State court shall be presumed to be correct. The applicant
shall have the burden of rebutting the presumption of correctness by clear and
convincing evidence.
28 U.S.C. § 2254(e)(1). “Under AEDPA, a writ of habeas corpus should be denied unless the
state court decision was contrary to, or involved an unreasonable application of, clearly
established federal law as determined by the Supreme Court, or based on an unreasonable
determination of the facts in light of the evidence presented to the state courts.” Coley v. Bagley,
706 F.3d 741, 748 (6th Cir. 2013) (citing Slagle v. Bagley, 457 F.3d 501, 513 (6th Cir. 2006)); 28
U.S.C. § 2254(d)(1) (a petitioner must show that the state court’s decision was “contrary to, or
involved an unreasonable application of, clearly established federal law”); 28 U.S.C. §
2254(d)(2) (a petitioner must show that the state court relied on an “unreasonable determination
of the facts in light of the evidence presented in the State court proceeding”). The United States
Court of Appeals for the Sixth Circuit has explained these standards as follows:
A state court’s decision is “contrary to” Supreme Court precedent if (1) “the state
court arrives at a conclusion opposite to that reached by [the Supreme] Court on a
question of law[,]” or (2) “the state court confronts facts that are materially
indistinguishable from a relevant Supreme Court precedent and arrives” at a
21

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 22 of 26 PAGEID #: 2550

foeSH* f

different result. Williams v. Taylor, 529 U.S. 362,405,120 S.Ct. 1495,146 L.Ed.2d
389 (2000). A state court’s decision is an “unreasonable application” under 28
U.S.C. § 2254(d)(1) if it “identifies the correct governing legal rule from [the
Supreme] Court’s cases but unreasonably applies it to the facts of the particular ..
. case” or either unreasonably extends or unreasonably refuses to extend a legal
principle from Supreme Court precedent to a new context. Id. at 407, 529 U.S. 362,
120 S.Ct. 1495, 146 L.Ed.2d 389.

Coley, 706 F.3d at 748^19. The burden of satisfying the standards set forth in § 2254 rests with
the petitioner. Cullen v. Pinholster, 563 U.S. 170, 181 (2011).
“In order for a federal court to find a state court’s application of [Supreme Court
precedent] unreasonable,... [t]he state court’s application must have been objectively
unreasonable,” not merely “incorrect or erroneous.” Wiggins v. Smith, 539 U.S. 510, 520-21,
(2003) (internal quotation marks omitted) (citing Williams v. Taylor, 529. U.S. at 409 and
Lockyer v. Andrade, 538 U.S. 63, 76 (2003)); see also Harrington v. Richter, 562 U.S. at 102
(“A state court’s determination that a claim lacks merit precludes federal habeas relief so long as
“‘fairminded jurists could disagree’ on the correctness of the state court’s decision.”) (quoting
Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). In considering a claim of “unreasonable
application” under § 2254(d)(1), courts must focus on the reasonableness of the result, not on the
reasonableness of the state court’s analysis. Holder v. Palmer, 588 F.3d 328, 341 (6th Cir. 2009)
(“[0]ur focus on the ‘unreasonable application’ test under Section 2254(d) should be on the
ultimate legal conclusion that the state court reached and not whether the state court considered
and discussed every angle of the evidence.”) (quoting Neal v. Puckett, 286 F.3d 230, 246 (5th
Cir. 2002) (en banc)); see also Nicely v. Mills, 521 F. App’x 398,403 (6th Cir. 2013)
(considering evidence in the state court record that was “not expressly considered by the state
court in its opinion” to evaluate the reasonableness of state court’s decision). Relatedly, in
evaluating the reasonableness of a state court’s ultimate legal conclusion under § 2254(d)(1), a
22

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 23 of 26 PAGEID #: 2551

court must review the state court’s decision based solely on the record that was before it at the
time it rendered its decision. Pinholster, 563 U.S. at 181. Put simply, “review under §
2254(d)(1) focuses on what a state court knew and did.” Id. at 182.
VI. Claim Two - Merits
In claim two, Petitioner asserts that the trial court imposed an unconstitutionally
excessive sentence. The state appellate court rejected this claim as follows:
[Ajppellant, citing the Fifth and Fourteenth Amendments to the United States
Constitution, Article I, Section 10 of the Ohio Constitution and R.C. 2929.11,
asserts that the trial court’s sentence does not comport with the purposes of felony
sentencing. In particular, appellant argues that the trial court’s refusal to consider
appellant’s mental health issues and impose a term of life without parole, which
will not provide appellant with an opportunity for parole or future mental health
services, fails to comply with the requirements and purpose of R.C. 2929.11.
(H35} Appellant cites State v. Marcum, 146 Ohio St.3d 516, 2016-0hio-1002, 59
N.E.3d 1231, for the proposition that an appellate court may vacate or modify any
sentence that is not clearly and convincingly contrary to law only if the appellate
court finds, by clear and convincing evidence, that the record does not support the
sentence. Counsel argues that appellant self-medicated with alcohol and drugs and
had no access to professional mental health services. The state counters that
Marcum dealt with sentencing for a classified felony, not for aggravated murder.
Id. at f 22-23. The state points out that Marcum relied on R.C. 2953.08 for the
statutory authority to review a felony sentence, however, R.C. 2953.08(D)(3)
makes clear, “[a] sentence imposed for aggravated murder or murder pursuant to
sections 2929.02 to 2929.06 of the Revised Code is not subject to review under this
section.” (Emphasis added.)
{1f 36} The Supreme Court of Ohio has held that “R.C. 2953.08(D) is unambiguous.
‘A sentence imposed for aggravated murder or murder pursuant to section 2929.02
to 2929.06 of the Revised Code is not subject to review under this section’ clearly
means what it says: such a sentence cannot be reviewed.” State v. Porterfield, 106
Ohio St.3d 5, 2005-0hio-3095, 829 N.E.2d 690, f 17. Moreover, this court has
held “[i]t is evident that the General Assembly intended to treat sentencing on
aggravated murder and murder convictions differently from other felony
sentences.” State v. Hawkins, 4th Dist. No. 13CA3, 2014-Ohio-1224, f 15, citing
State v. Porterfield at 17-18. We wrote: “we find pursuant to R.C. 2953.08(D)(3),
we lack statutory authority to review Hawkins’ sentence on an evidentiary basis.”
Id.

23

Case: 2:19-cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 24 of 26 PAG El D #: 2552

37} Appellant also contends that the trial court’s sentence did not comport with
due process and is excessive. However, our review of the record reveals that,
although the trial court expressed concern and acknowledged appellant’s mental
health issues, and allowed competency evaluations and forensic reviews and
pondered how better treatment earlier in life might have affected appellant, the
court concluded that the aggravating factors nevertheless outweighed appellant’s
mental health concerns: “You know, we’ve talked about the failures of the mental
health system. We’ve talked about the dramatic cuts to that system. Maybe if we
had a system that was properly funded, Mr. Vance may have received appropriate
treatment. But, those are all ‘what ifs.’ I don’t know. The reality that I have to deal
with is that Mr. Vance is a dangerous individual. He has committed a savage
crime.” The court further noted the injury to the victim, his family, and appellant’s
criminal history, including a prior violent offense.
flj 38} Consequently, after our review, we conclude that (1) appellant’s aggravated
murder sentence is not subject to appellate review, and (2) appellant’s sentence for
tampering with evidence comported with due process and is not excessive.
Accordingly, we overrule appellant’s third assignment of error.
State v. Vance, 2018 WL 1660068, at *6-7.
Again, to the extent that Petitioner raises a claim regarding the alleged violation of state
law or state sentencing statutes, this claim does not provide him a basis for relief. A federal
court may review a state prisoner’s habeas petition only on the grounds that the challenged
confinement is in violation of the Constitution, laws or treaties of the United States. 28 U.S.C. §
2254(a). A federal court may not issue a writ of habeas corpus “on the basis of a perceived error
of state law.” Pulley v. Harris, 465 U.S. 37, 41 (1984); Smith v. Sowders, 848 F.2d 735, 738 (6th
Cir. 1988). A federal habeas court does not function as an additional state appellate court
reviewing state courts’ decisions on state law or procedure. Allen v. Morris, 845 F.2d 610, 614
(6th Cir. 1988). “‘[Fjederal courts must defer to a state court’s interpretation of its own rules of
evidence and procedure’” in considering a habeas petition. Id. (quoting Machin v. Wainwright,
758 F.2d 1431, 1433 (11th Cir. 1985)). Only where the error resulted in the denial of
fundamental fairness will habeas relief be granted. Cooper v. Sowders, 837 F.2d 284, 286 (6th
Cir. 1988). Such are not the circumstances here.
24

A

Case: 2:19*cv-00687-JLG-EPD Doc #: 36 Filed: 11/07/19 Page: 25 of 26 PAGEID #: 2553
7&5H13,

The record likewise does not reflect that the trial court’s sentence violated federal law.
“[OJnly an extreme disparity between crime and sentence offends the Eighth Amendment.”
United States v. Marks, 209 F.3d 577, 583 (6th Cir. 2000) (citation omitted). Where, as here, the
trial court imposes a sentence that falls within the maximum penalty set by statute, that sentence
generally will not violate the Eighth Amendment. See,Hawkins v. Warden, Corr. Med, Ctr., No.
1:10-cv-551, 2011 WL 7396413, at *9 (S.D. Ohio Oct. 24, 2011) (citing Bryant v. Yukins, 39 F.
App’x 121,123 (6th Cir. 2002) (internal citation omitted)). “In the last century, the Supreme
Court has struck down only a handful of non-capital sentences under the Eighth Amendment*
and those cases have been egregious in the extreme.” United States v. Hughes, 632 F.3d 956,
959 (6th Cir. 2011), cert, denied, 563 U.S. 1039 (2011). For example, the Supreme Court has
upheld a mandatory life sentence without the possibility of parole for possession of more than
650 grams of cocaine even where the defendant had no prior felony convictions. See id. (citing
Harmelin v. Michigan, 501 U.S. 957, 961 (1990)). Additionally, the Eighth Amendment does
not require consideration of mitigating factors at sentencing in non-capital cases. See Dugan v.
Stewart, No. 2:16-cv-11830, 2018 WL 5831012, at *5 (E.D.Mich. Nov. 7, 2018) (citing Engle v.
United States, 26 F. App’x 394, 397 (6th Cir. 2001)). The Supreme Court has never held that the
Eighth Amendment prohibits a trial court from imposing a sentence of life imprisonment without
the possibility of parole for an adult offender on a murder conviction. See Nitsche v. Erdos, No.
l:17-cv-1037, 2019 WL 5300202, at *22 (N.D. Ohio July 26, 2019) (citing Carey v.Musladin,
549 U.S. 70, 77 (2006)).
Claim two is without merit.

25

%

Case: 2:19-cv-00687-JLG-EPD Doc #: 43 Filed: 12/20/19 Page: 1 of 1 PAGEID #: 2601

7k. 5T*I
IN THE UNITED STATES DISTRICT- COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
Lewis James Vance,
Petitioner,
Case No. 2:19-cv-687

v.
Warden, Noble Correctional
Institution,
Respondent.
ORDER

Petitioner has filed a document which the court construes as
a notice of appeal and a motion for a certificate of appealability.
For the reasons stated in this court's order of December 2, 2019,
petitioner's motion for a certificate of appealability (Doc. 41) is
denied.

Date: December 20, 2019

_______s/James L. Graham_____
James L. Graham
United States District Judge

Case: 2:19-cv-00687-JLG-EPD Doc #: 38 Filed: 12/02/19 Page: 1 of 3 PAGEID #: 2578

7°?.H\
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
LEWIS JAMES VANCE,
CASE NO. 2:19-CV-00687
JUDGE JAMES L. GRAHAM
Chief Magistrate Judge Elizabeth P. Deavers

Petitioner,
v.
WARDEN, NOBLE CORRECTIONAL
INSTITUTION,
Respondent.

OPINION AND ORDER
On November 7, 2019, the Magistrate Judge issued an Order and Report and
Recommendation denying Petitioner’s Motion for Evidentiary Hearing, Subpoena Depositional
Testimony, with the Appointment of Counsel (ECF No. 22), and recommending dismissal of this
action. (ECF No. 36.) Petitioner has filed an Objection to the Magistrate Judge’s Order and
Report and Recommendation. (ECF No. 37.)
Petitioner objects to the Magistrate Judge’s recommendation of dismissal of his claims as
procedurally defaulted or failing to warrant relief. He complains that he lacked adequate time to
prepare his objections. He again asserts that he is actually innocent. He claims to have obtained
a “confession” from one Terry Vincent and other unidentified new evidence establishing his
actual innocence from the guilty assailants against him. However, the record does not support
Petitioner’s claim of actual innocence.
Pursuant to 28 U.S.C. § 636(b), this Court has conducted a de novo review. The Court
has carefully reviewed the entire record. For the reasons already well detailed in the Magistrate
Judge’s Order and Report and Recommendation (ECF No. 36), Petitioner’s Objection (ECF No.
37) is OVERRULED. The Order and Report and Recommendation (ECF No. 36) is

Case: 2:19-cv-00687-JLG-EPD Doc #: 38 Filed: 12/02/19 Page: 2 of 3 PAGEID #: 2579

Ml
ADOPTED and AFFIRMED. Petitioner’s Motion for Evidentiary Hearing, Subpoena
Depositional Testimony, with the Appointment of Counsel (ECF No. 22) is DENIED. This
action is hereby DISMISSED.
The Court DECLINES to issue a certificate of appealability.
Pursuant to Rule 11 of the Rules Governing Section 2254 Cases in the United States
District Courts, the Court now considers whether to issue a certificate of appealability. “In
contrast to an ordinary civil litigant, a state prisoner who seeks a writ of habeas corpus in federal
court holds no automatic right to appeal from an adverse decision by a district court.” Jordan v.
Fisher, 135 S. Ct. 2647, 2650 (2015); 28 U.S.C. 2253(c)(1) (requiring a habeas petitioner to
obtain a certificate of appealability in order to appeal). The petitioner must establish the
substantial showing of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). This
standard is a codification of Barefoot v. Estelle, 463 U.S. 880 (1983). Slack v. McDaniel, 529
U.S. 473, 484 (2000) (recognizing codification of Barefoot in 28 U.S.C. § 2253(c)(2)). To make
a substantial showing of the denial of a constitutional right, a petitioner must show “that
reasonable jurists could debate whether (or, for that matter, agree that) the petition should have
been resolved in a different manner or that the issues presented were ‘adequate to deserve
encouragement to proceed further.’” Slack, 529 U.S. at 484 (quoting Barefoot, 463 U.S., at 893
n. 4).
Where the Court dismisses a claim on procedural grounds, however, a certificate of
appealability “should issue when the prisoner shows, at least, that jurists of reason would find it
debatable whether the petition states a valid claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the district court was correct in its procedural
ruling.” Id. Thus, there are two components to determining whether a certificate of appealability

2

Case: 2:19-cv-00687-JLG-EPD Doc #: 38 Filed: 12/02/19 Page: 3 of 3 PAGEID #: 2580

TTcmo
1
should issue when a claim is dismissed on procedural grounds: “one directed at the underlying
constitutional claims and one directed at the district court's procedural holding.” Id, at 485. The
court may first “resolve the issue whose answer is more apparent from the record and
arguments.” Id.
This Court is not persuaded that reasonable jurists would debate the dismissal of this
action. Therefore, the Court DECLINES to issue a certificate of appealability.
The Court CERTIFIES that the appeal would not be in good faith such that an
application to proceed in forma pauperis on appeal should be DENIED.
The Clerk is DIRECTED to enter FINAL JUDGMENT.
IT IS SO ORDERED.
Date: December 2, 2019

s/James L. Graham
JAMES L. GRAHAM
UNITED STATES DISTRICT JUDGE

3

Case: 2:19-cv-00687-JLG-EPD Doc #: 34 Filed: 09/09/19 Page: 1 of 4 PAGEID #: 2041

7k,$a.w
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
LEWIS JAMES VANCE,
Petitioner,

CASE NO. 2:19-CV-00687
JUDGE JAMES L. GRAHAM
Chief Magistrate Judge Elizabeth P. Deavers

v.

WARDEN, NOBLE
CORRECTIONAL INST.,
Respondent.
ORDER
Petitioner has filed a Request for Physical Medical Records requesting a medical
examination under the provision of Rule 35 of the Federal Rules of Civil Procedure, and
expansion of the record to include records from this examination, as well from a medical
examination conducted on November 29-30, 2013. (ECF No. 28.) According to Petitioner,
these records will establish that he acted in self defense and suffered various injuries at the time
of the alleged charges, including fractures from stab wounds between his eyes and on his head,
fractures from blunt force trauma inflicted by a baseball bat, the remains of broken knife blades
in his back and head, broken ribs and fractures in his right arm and leg. Petitioner complains that
his attorney failed to obtain these medical records. He has attached a copy of the trial court’s
August 5, 2014, Order indicating that he could obtain his own medical records. (ECF No. 28-1,
PAGEID # 2019.) Respondent opposes Petitioner’s requests. (ECF No. 30.)
Rule 35 of the Federal Rules of Civil Procedure provides that a court “may order a party
whose mental or physical condition... is in controversy to submit to a physical or mental
examination by a suitably licensed or certified examiner.” Fed. R. Civ. P. 35(a)(1). Such an
order “may be made only on motion for good cause[.]” Fed. R. Civ. P. 35(a)(2)(A). These

Case: 2:19-cv-00687-JLG-EPD Doc #: 34 Filed: 09/09/19 Page: 3 of 4 PAGEID #: 2043

7fe£tT6

fyHS

Here, Petitioner has filed a petition for a writ of habeas corpus pursuant to 28 U.S.C. §
2254, challenging his December 2016 criminal convictions after a jury trial in the Jackson
County Court of Common Pleas on charges of aggravated murder, murder, felonious assault, and
tampering with evidence. He asserts that the trial court improperly denied him a hearing on his
motion for a new trial (claim one); that his sentence is inhumane (claim two); that his convictions
are against the manifest weight of the evidence, and that the evidence is constitutionally
insufficient to sustain his convictions (claim three); and that he was denied the effective
assistance of trial and appellate counsel (claim four). It is Respondent’s position that Petitioner’s
claims are procedurally defaulted or without merit.
The record reflects no basis for the Court to order a medical examination of Petitioner
under Rule 35 or expansion of the record to include any such records. Petitioner’s present
physical condition is not in controversy. The record indicates no good cause for this request.
Further, Respondent indicates that it does not possess and cannot obtain any records of
Petitioner’s medical condition or medical examination from November 29-30,2013. Moreover,
Petitioner does not indicate and it is not apparent from the record, the manner in which such
documents will assist him in establishing his claims. Notably, Cullen v. Pinholster, 563 U.S. 170
(2011), precludes this Court’s consideration of new evidence in addressing the merits of
Petitioner’s claims. See Ogle v. Mohr, No. 2:15-cv-776, 2017 WL 951489, at *33-34 (S.D. Ohio
March 10, 2017) (citations omitted). While Pinholster does not limit this Court’s consideration
of new evidence for purposes of determining whether a petitioner can establish a “gateway”
claim of actual innocence offered to excuse a procedural default, “the limitations in Pinholster
apply to expansion of the record as well as to evidentiary hearings.” Id. at *34 (citing Moore v.
Mitchell, 708 F.3d 760, 780-784 (6th Cir. 2013) (other citations omitted); see also Fortson v.

3

Additional material
from this filing is
available in the
Clerk's Office.

